COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No.
WILLIAM F. HOLDNER,
An Individual, dba HOLDNER FARMS,
— Petitioner,
v.
KATY COBA, Director of the Department of
Agriculture, in her individual and official capacity;
DICK PEDERSON, Director of the Oregon
Department of Environmental Quality,
in his individual and official capacity,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of July, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
WILLIAM F. HOLDNER, Pro Se
32244 Scappoose Vernonia Hwy.
Scappoose, OR 97056
Tel: 1-503-233-4601
Fax: 1-503-987-1272
E-mail: jane@holdnerbaum.com
Petitioner

RECEIVED
Jut. 1 8 2,7t9
Subscribed and sworn to before me this 16th day of July, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38210

Ellen Rosenblum
Attorney General
Oregon Department of Justice
1162 Court St. NE
Salem, OR 97301-4096
503-378-6002
Counsel for Respondents

1

